No. 19-48

IN THE

'uprenu Court of the rite i'tateo
B&B HARDWARE, INC.,
Petitioner,
v.
HARGIS INDUSTRIES, INC.,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Eighth Circuit

BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,657 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 7, 2019.

Colin CaseyMogan
Wilson-Epes Printing Co., Inc.

